October 15, 2021

Allyson N. Ho
Direct: +1 214.698.3233
Fax: +1 214.571.2971
AHo@gibsondunn.com

VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Jane Doe v. Facebook, Inc., No. 21-459

Dear Mr. Harris:
I represent respondent Facebook in this matter. The petition for a writ of
certiorari was docketed on September 27, 2021, and the brief in opposition is
currently due October 27, 2021. Pursuant to Supreme Court Rule 30.4, Facebook
respectfully requests that the time to file the brief in opposition be extended by 30
days, to and including November 26, 2021.
This extension is requested both to allow adequate time to prepare a brief in
opposition to the petition in light of several significant professional obligations I
have in matters pending before this Court and other courts, and to allow adequate
time to consider and, if necessary, respond to briefs of amici curiae expected to be
filed on or before October 27, 2021.
Thank you for your kind assistance.
Respectfully submitted,

Allyson N. Ho

cc:

Warren W. Harris, counsel for petitioner

